IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 19-840
STATE OF CALIFORNIA, ET AL., PETITIONERS
v.
STATE OF TEXAS, ET AL.
_______________
No. 19-1019
STATE OF TEXAS, ET AL., PETITIONERS
v.
STATE OF CALIFORNIA, ET AL.
_______________
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________
MOTION OF THE FEDERAL RESPONDENTS FOR DIVIDED ARGUMENT AND
RESPONSE TO MOTIONS FOR EXPANDED ARGUMENT
_______________
Pursuant to Rules 21.4 and 28.4 of the Rules of this Court,
the Solicitor General, on behalf of the United States and the other
federal parties, seeks leave to divide the oral argument for the
federal respondents and State respondents/cross-petitioners in the
above cases; responds to the motion of the amici States Ohio and
Montana (amici States) to participate in oral argument and for
expanded argument; and states its position on the forthcoming
motion from the U.S. House of Representatives.

Counsel for the

State respondents/cross-petitioners have authorized us to state
that they agree with the motion seeking leave to divide the oral

2
argument for the federal respondents and State respondents/crosspetitioners and agree with the response to the motion of the amici
States,

and

therefore

join

in

the

portions

of

this

filing

addressing these two positions.
1.
oral

The United States respectfully seeks leave to divide the
argument

for

the

respondents/cross-petitioners

federal
in

respondents

these

cases.

and

State

This

Court

consolidated the two cases and allocated a total of one hour for
oral argument.

The United States moves to allocate 15 minutes of

oral argument time to the federal respondents in No. 19-840 and
No. 19-1019 and 15 minutes to the State respondents in No. 19-840
and cross-petitioners in No. 19-1019.

Granting this motion would

not require the Court to enlarge the overall time for argument.
The Patient Protection and Affordable Care Act (ACA), Pub. L.
No. 111-148, 124 Stat. 119, established a framework of economic
regulations and incentives that restructured the health-insurance
and

healthcare

industries.

Among

other

provisions,

the

ACA

contains a “[r]equirement to maintain minimum essential coverage,”
26 U.S.C. 5000A (emphasis omitted), which is colloquially known as
the “individual mandate.”
the

penalty

imposed”

The ACA also specifies “[t]he amount of

for

noncompliance

with

the

individual

mandate, 26 U.S.C. 5000A(c), often referred to as the “[s]haredresponsibility payment,” 26 U.S.C. 5000A(b) (emphasis omitted).
In

National

Federation

of

Independent

Business

v.

Sebelius,

3
567 U.S. 519 (2012) (NFIB), this Court considered a challenge to
the validity of the individual mandate and held that, to save the
mandate from unconstitutionality, it could be construed as a valid
exercise of Congress’s taxing power, U.S. Const. Art. I, § 8,
Cl. 1.
In December 2017, Congress enacted the Tax Cuts and Jobs Act
(TCJA),

Pub.

L.

No.

115-97,

Tit.

I,

131 Stat.

2054,

which

eliminated the shared-responsibility payment as of January 1,
2019.

Following

the

TCJA’s

enactment,

several

plaintiffs,

including Texas and 17 other States (State respondents/crosspetitioners) and two individual plaintiffs, brought this suit
challenging the constitutionality of the individual mandate and
the

enforceability

of

the

remainder

of

the

ACA.

The

State

respondents/cross-petitioners argued that Congress’s elimination
of the shared-responsibility payment abrogated the basis of NFIB’s
saving

construction

of

the

individual

mandate

and

that

the

remainder of the ACA is inseverable from the mandate. The district
court entered a declaratory judgment declaring the individual
mandate unconstitutional and inseverable from the remainder of the
ACA.

The court of appeals agreed that the individual mandate is

no longer constitutional but remanded the case for the district
court to reconsider severability and to consider the federal
government’s argument that relief should be confined to redressing
the plaintiffs’ cognizable injuries.

4
This Court granted writs of certiorari in these cases to
determine whether the plaintiffs have standing to challenge the
individual mandate and associated insurance-reform provisions;
whether,

as

a

result

of

the

elimination

of

the

shared-

responsibility payment, the individual mandate remains a valid
exercise of Congress’s legislative authority; and whether, if the
individual mandate is now invalid, the remainder of the ACA’s
provisions are inseverable from it.

The State respondents/cross-

petitioners have primarily relied on their own injuries as the
basis for Article III standing, State Resp./Cross-Pet. Br. 19-30,
while the federal government has relied on the injuries suffered
by the individual plaintiffs, Gov’t Br. 13-23. And while the State
respondents/cross-petitioners have argued for nationwide relief in
the

form

of

a

declaratory

judgment

declaring

the

ACA

unconstitutional and unenforceable throughout the United States,
State

Resp./Cross-Pet.

Br.

46-48,

the

federal

government

has

argued that the Court must limit any remedy to redressing the
cognizable injuries incurred by the plaintiffs, Gov’t Br. 15-16.
2.
argument

The United States respectfully submits that dividing the
time

between

the

federal

respondents

and

the

State

respondents/cross-petitioners would be of material assistance to
the Court.
case

The United States has a significant interest in this

because

it

implicates

the

validity

of

a

major

federal

statutory scheme and the extent to which the federal government

5
may enforce that scheme throughout the United States.

The State

respondents/cross-petitioners also have a significant interest in
this case because they must comply with certain ACA provisions and
are involved in implementing portions of the ACA.

See State

Resp./Cross-Pet. Br. 20-25.

And the interests of the federal

government

respondents/cross-petitioners

and

the

State

distinct in a number of ways.

are

The federal government has a

distinct interest in arguing that any remedy should be cabined to
provisions that cause the plaintiffs’ cognizable injuries.

And

the State respondents/cross-petitioners have a distinct interest
in addressing the question of their Article III standing.

The

federal government accordingly requests that the Court grant the
motion for divided argument.
3.

The United States opposes the motion of the amici States

to participate in oral argument and for expanded argument.

While

the amici States assert that they are arguing a unique combination
of two positions -- that the individual mandate is unconstitutional
and severable, see Amici States Mot. 1 -- the existing parties
will fully represent those two positions at argument.

Both the

federal government and the State respondents/cross-petitioners
have argued that the individual mandate is unconstitutional, see
Gov’t Br. 23-36; State Resp./Cross-Pet. Br. 30-36, while the State
petitioners/cross-respondents

have

argued

that

the

mandate

is

severable from the remainder of the ACA, see State Pet./Cross-

6
Resp. Br. 35-48.

Duplicative oral argument from nonparties on

these points will not materially assist the Court in deciding this
case.

And, in any event, if the Court grants the amici States

oral argument time, the Court should enlarge the oral argument
time rather than reduce the time allotted to the federal government
and the State respondents/cross-petitioners; both parties should
receive 15 minutes of oral argument time.
4.

The

U.S.

House

of

Representatives

has

informed

the

United States that it intends to file a motion to divide oral
argument time with the State petitioners/cross-respondents along
with a motion to expand oral argument time.

The United States

does not oppose the division of oral argument time between the
House and the State petitioners/cross-respondents.

The United

States does oppose, however, the expansion of oral argument time.
The arguments made by the House and the State petitioners/crossrespondents are largely overlapping and duplicative, and there is
no evident reason why they cannot present those arguments in the
time allotted.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JULY 2020

